TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Controls and Performance Measures for
                      the Records Management Program
                             Need to Be Improved



                                          March 20, 2008

                              Reference Number: 2008-10-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 20, 2008


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls and Performance Measures for the
                             Records Management Program Need to Be Improved
                             (Audit # 200710017)

 This report presents the results of our review of the Internal Revenue Service (IRS) Records
 Management Program. The overall objective of this review was to determine whether the
 Records Management Program provides the oversight necessary to ensure that IRS records are
 legally and properly handled throughout their life cycle. The Department of the Treasury Office
 of the Assistant Secretary for Management and Chief Financial Officer considered records
 management as one of the top three business risks facing the IRS in Fiscal Year 2007, and, as
 such, it was included in our Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS is responsible for controlling and managing a variety of sensitive records, including
 taxpayer information. However, the IRS Records Management Program Office did not have
 adequate controls in place to fulfill this responsibility. As a result, we could not determine if IRS
 records management practices were in full compliance with existing laws and regulations. In
 addition, the Records Management Program did not have adequate measures with which to
 determine if the Program was meeting its intended goals. This increases the risk that taxpayer
 service and tax enforcement functions could be hindered or delayed if records are not available
 to conduct business.
                       Controls and Performance Measures for the Records
                           Management Program Need to Be Improved




Synopsis
The Records Management Program Office has established some controls and procedures for
carrying out its records management duties. However, additional oversight of the Program is
needed. The Records Management Program, which handles both paper and electronic files, did
not include sufficient:
   •    Administrative control of records management personnel.
   •    Onsite reviews to ensure that records are properly stored and disposed of.
   •    Oversight of records management training.
   •    Performance measures to assess the efficiency and effectiveness of the Program.
The IRS Real Estate and Facilities Management Division, within the Agency-Wide Shared
Services organization, is responsible for the Records Management Program. The Records
Management Program Office has overall responsibility for ensuring that the Program supports
the IRS’ mission and business needs and complies with Federal laws and regulations.
The Records Management Program Office relies on Area Records Managers and Information
Resource Coordinators to carry out the Records Management Program in accordance with the
policies it develops. However, records management is just one part of the Area Records
Managers’ daily responsibilities, and the Records Officer does not direct their time or activities.
This could lead to conflicting priorities and decrease the ability of the Program Office to identify
and correct problems.
In addition, the Records Officer has not performed reviews of all Area Records Managers to
ensure that they are adequately performing the responsibilities of the Records Management
Program. Similarly, the Area Records Managers did not always conduct visits or reviews of the
Information Resource Coordinators who handle the day-to-day processing of IRS records. In
addition, 35 percent of the Information Resource Coordinators we interviewed stated that they
had not received any records management training. These conditions reduce the IRS’ ability to
verify record inventories, ensure that the Information Resource Coordinators understand records
management procedures, and ensure compliance with IRS and Federal Government procedures.
Finally, the current performance measure associated with the Program does not provide adequate
information on whether the Program is meeting its major goals. Management needs performance
information to identify any areas needing improvement and to make appropriate changes to the
Program.




                                                                                                   2
                       Controls and Performance Measures for the Records
                           Management Program Need to Be Improved




Recommendations
We recommended that the Director, Real Estate and Facilities Management Division, determine
if having the Records Management Program administered by employees working on records
issues part time without being directly responsible to the Records Officer is the most appropriate
way to manage the Program. We also recommended the Director revise guidance to include
clearer statements of responsibility for those involved in the Program and establish appropriate
training requirements for all individuals involved in records management. In addition, we
recommended the Director ensure that performance measures for the Program address both the
efficiency and effectiveness of the Program and are consistent with major Program goals.

Response
The Director, Real Estate and Facilities Management, agreed with three of the four
recommendations. The Director agreed to examine the statements of responsibility and revise
the Internal Revenue Manual as necessary. The Director also agreed to issue a comprehensive
set of roles to the local managers. The Director will establish a training curriculum for the Area
Records Managers, revise the training course for the Information Resource Coordinators, and
ensure that they are trained. In addition, the Director will develop performance measures aligned
with Program goals to assess the effectiveness of the Records Management Program. The
Director neither agreed nor disagreed with our recommendation to determine if administrating
the Program with employees working on records issues on other than a full-time basis and not
directly responsible to the Records Officer was the most appropriate way to run the Program. In
the response, the Director stated that the Real Estate and Facilities Management Division had
completed a major reorganization during Calendar Year 2007. As part of this, the Director
believes the revised structure of the field organization is sufficient to properly administer the
Program. Management’s complete response to the draft report is included as Appendix IV.

Office of Audit Comment
We do not believe the corrective action to our recommendation to evaluate how the Records
Management Program is staffed fully addresses the concerns we reported. The Real Estate and
Facilities Management Division completed a realignment of its staff, including the Area Records
Managers, after we completed our fieldwork. However, this realignment still has shortcomings.
The revised staffing does not place the Records Officer as the direct supervisor over the Area
Records Managers, and the Area Records Managers will continue to be supervised by other
managers with other responsibilities and possibly competing priorities. We believe the Real
Estate and Facilities Management Division should reassess whether the realignment is providing
the level of oversight needed and make changes as necessary.



                                                                                                 3
                     Controls and Performance Measures for the Records
                         Management Program Need to Be Improved



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        4
                                Controls and Performance Measures for the Records
                                   Management Program Need to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Oversight of the Records Management Program
          Needs to Be Improved ..................................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 8

                    Recommendation 3:........................................................Page 9

          The Current Performance Measure Is Not Consistent
          With Records Management Program Goals .................................................Page 9
                    Recommendation 4:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
      Controls and Performance Measures for the Records
         Management Program Need to Be Improved




                Abbreviations

IRS       Internal Revenue Service
                           Controls and Performance Measures for the Records
                              Management Program Need to Be Improved




                                            Background

All Federal Government agencies are required to make and preserve records containing adequate
and proper documentation of the organization, functions, policies, decisions, procedures, and
essential transactions of the agency.1 Simply put, “a record is any piece of recorded information
relating to the work of a government office, regardless of who created it, how it was created or
received, or the medium on which it was created.”2 Records management involves the discipline
and processes needed to create, maintain and use, and then properly dispose of an organization’s
records.
The Internal Revenue Service (IRS) must adequately control and manage a variety of records,
including sensitive taxpayer data. As of May 2007, the IRS had over 6.7 million cubic feet of
paper records stored in Federal Records Centers around the country. The records stored at these
Centers include (but are not limited to) tax returns and payment vouchers submitted by
taxpayers, penalty assessments and case files prepared by IRS employees, and IRS
administrative records such as employee time and attendance records and travel vouchers. Tax
returns, associated documents, and posting records make up 93 percent of the records stored at
the Federal Records Centers. The other 7 percent is made up of administrative files and
documents. Storing and handling these records cost the IRS approximately $33.7 million in
Fiscal Year 2006.
In addition to paper records, the IRS must manage electronic records. The number of electronic
records has grown as more taxpayers file their returns electronically and as more IRS processes
are completed electronically. Figure 1 compares the numbers of paper and electronic returns
filed during Fiscal Years 2004 through 2006.
            Figure 1: Numbers of Returns Filed by Fiscal Year (in thousands)
                                                                                           Percentage of
    Fiscal                               Electronically           Total Returns
                Paper Returns                                                               Electronic
    Year                                 Filed Returns                Filed
                                                                                             Returns
     2004            156,776                  67,616                   224,392                    30%
     2005            150,477                  76,200                   226,677                    34%
     2006            147,640                  80,505                   228,145                    35%
    Source: IRS Data Books3 2004, 2005, 2006 and Treasury Inspector General for Tax Administration
    analysis.

1
  44 U.S.C. § 3101 (2000).
2
  Internal Revenue Service Records Management Process Awareness learning program.
3
  The Internal Revenue Service Data Book contains information on returns filed and taxes collected, enforcement,
taxpayer assistance, and other selected activities on a fiscal year basis.
                                                                                                           Page 1
                          Controls and Performance Measures for the Records
                             Management Program Need to Be Improved



The IRS Real Estate and Facilities Management Division, within the Agency-Wide Shared
Services organization, is responsible for the Records Management Program that consists of both
paper and electronic files. The Records Management Program Office has overall responsibility
for ensuring that the Program supports the IRS’ mission and business needs and complies with
Federal laws and regulations.
Previous Treasury Inspector General for Tax Administration reports found that the ability of the
IRS to perform its taxpayer service and tax enforcement duties in a timely manner has been
hindered by problems and delays in obtaining appropriate records. For example, in
September 2004, we reported the IRS did not provide approximately 15 percent of the tax
records requested during the audit and another 9 percent took longer than 40 calendar days to be
provided.4 In addition, Department of the Treasury officials identified records management as
one of the top three business risks faced by the IRS in Fiscal Year 2007.
Concurrent with our audit, the Government Accountability Office, at the request of the Senate
Committee on Finance, was conducting an assessment of whether IRS case files of individual
taxpayers are complete and available in a timely manner.5 Therefore, we did not conduct any
tests that would duplicate the work expected to be completed by the Government Accountability
Office. Our review was performed in the Agency-Wide Shared Services organization in
Washington, D.C., during the period October 2006 through November 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
  Better Procedures Are Needed to Locate, Retrieve, and Control Tax Records (Reference Number 2004-10-186,
dated September 2004).
5
  The IRS Can Improve Its Management of Paper Case Files (GAO-07-1160, dated September 2007).
                                                                                                      Page 2
                           Controls and Performance Measures for the Records
                              Management Program Need to Be Improved




                                 Results of Review

While the Records Management Program Office has established some controls and procedures
for carrying out its records management duties, there should be additional oversight of the
Program. Neither we nor the IRS could determine if the IRS records management practices were
in full compliance with existing laws and regulations. This puts the IRS at risk of not having
records available to conduct business or of retaining records beyond their retention dates. The
IRS also does not know if there are appropriate resources assigned to the Program because the
Records Management Program Office does not adequately review what the various business unit
representatives do or how well they perform their records management responsibilities.
The Records Management Program Office has taken some actions to improve records
management within the IRS. For example, the Records Officer prepared mandatory record
control schedules, which provide instructions on how long records should be kept and how to
dispose of them. IRS managers should ensure that records are “scheduled” for disposal or
destruction based on these guidelines. The Records Officer is also working with the Chief
Information Officer to identify all electronic systems and ensure that the electronic records on
those systems are scheduled for disposal or destruction. The IRS currently has more than
500 electronic systems, and the Records Officer and staff have reduced the number of
unscheduled systems to fewer than 100. The E-Government Act of 20026 requires that existing
electronic systems be scheduled by September 2009, and the Records Officer expects to meet
that requirement. The Records Management Program Office also reviews new enterprise-wide
computer systems to ensure that records management issues are addressed and has created a
web site providing tutorials and guidance on records management.
However, the Records Management Program did not include the following controls to ensure
effective records management: the Records Officer has not conducted reviews of all Area
Records Managers (hereafter referred to as Records Managers), Records Managers do not
routinely conduct reviews of the Information Resource Coordinators (hereafter referred to as
Coordinators), and not all Coordinators have been trained in records management. In addition,
the Records Management Program Office has not developed performance measures that provide
information on whether the Program is achieving its major goals to furnish accurate and
complete information and to store records at the lowest possible cost.




6
    Pub. L. No. 107-347.
                                                                                           Page 3
                            Controls and Performance Measures for the Records
                               Management Program Need to Be Improved



Oversight of the Records Management Program Needs to Be
Improved
An effective records management program should support an agency’s mission and business
needs, including:
      •    Help provide the information needed for decision making and operations and make it
           readily available.
      •    Facilitate effective performance of activities throughout an agency.
      •    Protect the rights of the agency, its employees, and its customers.
      •    Provide continuity in the event of a disaster.
      •    Protect records from inappropriate and unauthorized access.
      •    Meet statutory and regulatory requirements including archival, audit, and oversight
           activities.
However, the IRS Records Management Program Office does not have effective controls to
ensure that IRS records management complies with statutory and regulatory requirements.
Specifically, the Records Management Program did not include sufficient:
      •    Administrative control of records management personnel.
      •    Onsite reviews to ensure that records are properly stored and disposed of.
      •    Oversight of records management training.

The Records Management Program Office does not have administrative control of
records management personnel
The Records Management Program Office includes the Records Officer and four staff members.
The Program Office is currently supported by 17 Records Managers7 who are expected to
provide advice and assistance to the business units, including:
      •    Inventorying records.
      •    Verifying whether records have authorized disposition instructions.
      •    Ensuring that records are disposed of or transferred for permanent keeping in the proper
           way at the scheduled time.



7
    Since November 2006, the IRS has reduced the number of Records Managers from 28 to 17.
                                                                                             Page 4
                          Controls and Performance Measures for the Records
                             Management Program Need to Be Improved



    •    Promoting awareness of records management through training, publicity, and related
         support activities.
In addition, there are approximately 1,500 Coordinators appointed by the business units who
carry out the daily processing of records with assistance, oversight, and guidance from the
Records Managers.
The Records Management Program Office relies on the Records Managers and Coordinators to
run the IRS Records Management Program in accordance with the policies it develops.
However, the Records Officer does not control their time or dictate their activities, which could
lead to conflicting priorities. Currently, most of the Records Managers perform records
management duties as just one part of their everyday responsibilities. A Records Manager’s
immediate supervisor (who is not a part of the Records Management Program) can direct the
Records Manager to perform other duties, even though there may be a higher priority records
management need.
The Records Officer informed us that Records Managers will be assigned to new positions in
December 2007, with the primary job responsibility of records management. However,
the Records Managers will continue to report to supervisors with additional goals and
responsibilities beyond records management, and they may still receive collateral assignments.
Because the Records Management Program Office does not have authoritative control over the
resources that it relies on for the Program, the abilities of the Program Office to identify and
correct problems are decreased.

The Records Management Program does not include sufficient onsite reviews
The Department of the Treasury Records and Information Management Manual8 requires bureau
Records Officers to conduct regular internal reviews of their bureau Records Management
Programs to monitor compliance and report on Program effectiveness. The Internal Revenue
Manual requires the Records Officer to participate in records reviews and Program evaluations in
Headquarters and field organizations to determine how well records are managed, but it does not
specify the frequency of those reviews.
Although in this position since November 2003, the Records Officer has not performed reviews
of all Records Managers to ensure that they are adequately performing the responsibilities of the
Records Management Program. The Records Officer has conducted five or six program reviews
a year since taking over this position. When we began our review in October 2006, the Records
Officer had completed program reviews for two-thirds of the Records Managers (19 of 28). The
Records Office planned to conduct four additional reviews in Fiscal Year 2007. Although the

8
 Treasury Directive 80-05, dated June 26, 2002, provides policies and assigns responsibilities for records
management, forms management, and interagency reports management. It also authorizes the issuance of Treasury
Department Publication (TD P) 80-05, Records and Information Management (RIM) Manual, which includes
additional policy guidance for specific categories of records.
                                                                                                      Page 5
                            Controls and Performance Measures for the Records
                               Management Program Need to Be Improved



Records Officer recognizes the need to perform more reviews and wants to eventually do
biennial reviews, the Records Officer has not yet reached the point of conducting even triennial
reviews. Because the number of Records Managers has been reduced to 17, the Records Officer
should be able to review the Records Managers more often.
Similarly, the Records Managers did not always conduct visits or reviews of the Coordinators
to verify record inventories, ensure that Coordinators understand records management
procedures, and ensure compliance with IRS and Federal Government procedures. In fact,
23 (88 percent) of the 26 Coordinators we interviewed stated a Records Manager had never
performed a review of their areas. Seven (70 percent) of the 10 Records Managers we
interviewed stated they either do not perform reviews of the Coordinators or they perform
reviews of a Coordinator’s unit only if the Coordinator or the business unit requests one.
Further, one of the Records Managers did not have a list of the Coordinators in his or her
Territory,9 which would make it difficult and time consuming to determine who to review.
The Internal Revenue Manual10 does not include a requirement for Records Managers to conduct
site visits to ensure that the Program is administered properly. However, Office of Management
and Budget Circular A-123, Management’s Responsibility for Internal Control, stipulates that
“. . . periodic reviews, reconciliations . . . should be included as part of the regular assigned
duties of personnel. Periodic assessments should be integrated as part of management’s
continuous monitoring of internal control. . . .” Without reviews by the Records Managers, the
IRS can not ensure that (1) any new records series created by the business units are identified
and scheduled or (2) schedules that need to be revised are identified and adjusted. In addition,
without the reviews, there is no process to verify whether records are handled according to legal
and procedural requirements.
A recent Treasury Inspector General for Tax Administration audit11 of the Office of Appeals
found the Office of Appeals staff were keeping some files for 10 years, which was longer than
required for many of the cases.12 Keeping records longer than the established schedules was a
problem also noted by the Records Officer. During a trip to Louisiana after Hurricane Katrina,
the Records Officer noticed that some of the offices reviewed were keeping records longer than
necessary. If the Records Managers had been conducting regular reviews of the business units,
these types of issues might have been identified and brought to management’s attention. Further,
if Records Managers are not routinely conducting and documenting reviews of the Coordinators,



9
  The Real Estate and Facilities Management Division field structure consists of 14 geographic areas called
Territories.
10
   Internal Revenue Manual Section 1.15.1.7.1.1 (dated 01-01-2003).
11
   The Office of Appeals Closed Case Files Are Overwhelming Onsite Storage Space (Reference
Number 2008-10-055, dated January 15, 2008).
12
   Based on the collection statute dates identified in the sample reviewed, the average required storage period was
8 years.
                                                                                                              Page 6
                           Controls and Performance Measures for the Records
                              Management Program Need to Be Improved



the Records Officer will be unable to use this information to help conduct reviews of the Records
Managers and assess the overall effectiveness of the Records Management Program.

Not all Coordinators have been properly trained in records management
procedures
The National Archives and Records Administration Disposition of Federal Records: A Records
Management Handbook states that one of the basic elements in a records program is to train all
those taking part in the agency’s records activities, including files custodians (the Coordinators).
The Department of the Treasury Records and Information Management Manual also stresses the
importance of all Department employees having adequate training to perform records and
information management duties. It states that new employees should receive a records
management orientation briefing by records management personnel when they start work.
Thirty-five percent of the Coordinators we interviewed stated they had not received any records
management training. We attempted to determine what records management training the
approximately 1,500 Coordinators had received. However, we were unable to do so because a
complete list of the Coordinators with an appropriate unique identifier13 is not maintained. The
Records Officer informed us it was too labor intensive for the Program Office staff to maintain
such a list and, even if they did, it would be of very little value because Program Office staff do
not interact with the Coordinators. Therefore, we queried the IRS official training database by
course number and determined that, since it was made available in March 2004, only 372 IRS
employees had completed Introduction to Records Management for Information Resources
Coordinators (Course Number 9850s). This means, at most, only 25 percent of the current
Coordinators have completed this course.
There are frequent changes to which employees are designated as Coordinators and how many
employees are Coordinators. Because of this, we believe requiring the Coordinators to
successfully complete this introductory online course would ensure that the individuals
responsible for the day-to-day handling of records have at least a basic understanding of records
management processes and procedures and of their responsibilities for ensuring proper records
management. In addition, we believe that any other records management training received in
continuing professional education seminars or other settings should be formally recorded on
either the official training database or a secondary system.
The conditions identified in this report demonstrate a risk that the IRS Records Management
Program is not compliant with existing laws and regulations. While the Internal Revenue
Manual lists several activities the Records Officer and the Records Managers are expected to
perform, it does not list sufficient specific program oversight actions they must take to evaluate
the overall effectiveness of the Records Management Program. In addition, even if the Records

13
  The IRS uses a unique identifying number, known as the Standard Employee Identifier, to associate training
histories and other personnel-related information to a specific employee.
                                                                                                          Page 7
                           Controls and Performance Measures for the Records
                              Management Program Need to Be Improved



Managers were performing onsite reviews, neither the Records Officer nor the Records
Managers have the authority to direct the business units to destroy or transfer, in a timely
manner, records that have reached the end of their retention periods. Having untrained
Coordinators increases the risk that the individuals with day-to-day responsibility for records
may not dispose of them on time or that new records may not be properly identified and
scheduled for disposition.

Recommendations
The Director, Real Estate and Facilities Management Division, should:
Recommendation 1: Determine if having the Records Management Program administered
largely through the use of employees working on records issues on other than a full-time basis
without being directly responsible to the Records Officer is the most appropriate manner in
which to administer the Program.
        Management’s Response: IRS management neither agreed nor disagreed with this
        recommendation, stating that the Real Estate and Facilities Management Division had
        completed a major reorganization during Calendar Year 2007. The Real Estate and
        Facilities Management Division has examined the staffing associated with the Records
        Managers and believes the 15 Full-Time Equivalents14 in the Records field organization
        are sufficient to properly administer the Program. Division management will continue to
        provide a strong level of oversight to the Records Managers through conference calls,
        continuing professional education, and Program reviews.
        Office of Audit Comment: We do not believe this corrective action fully addresses
        the concerns stated in our recommendation. The Real Estate and Facilities Management
        Division completed a realignment of its staff, including the Records Managers, after we
        completed our fieldwork. However, this realignment still has shortcomings. The revised
        staffing does not place the Records Officer as the direct supervisor over the Records
        Managers, and the Records Managers will continue to be supervised by other managers
        with other responsibilities and possibly competing priorities. We believe the Real Estate
        and Facilities Management Division should reassess whether the realignment is providing
        the level of oversight needed and make changes as necessary.
Recommendation 2: Revise guidance to include clearer statements of responsibility for those
involved in the Records Management Program. The revisions should include guidelines and
schedules for comprehensive onsite reviews by the Records Officer and Records Managers.


14
  A Full-Time Equivalent is a measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours
multiplied by the number of compensable days in a particular fiscal year. This usually equates to 1 person working
1 year but can equate to 2 people working 1/2 of a year each, 2 people working part time for a full year, 3 people
working 1/3 of a year each, etc.
                                                                                                           Page 8
                       Controls and Performance Measures for the Records
                          Management Program Need to Be Improved




       Management’s Response: IRS management agreed with this recommendation and
       will examine the statements of responsibility, schedule comprehensive onsite reviews,
       and revise the Internal Revenue Manual as necessary. In addition, a comprehensive set of
       roles and responsibilities will be issued to local Real Estate and Facilities Management
       managers who have direct supervision over the Records Managers.
Recommendation 3: Establish appropriate training requirements for all individuals involved
in records management and establish procedures to ensure compliance with the training
requirements.
       Management’s Response: IRS management agreed with this recommendation. In
       Fiscal Year 2008, the Real Estate and Facilities Management Division will work to
       highlight the training products already available for IRS employees and will establish a
       training curriculum for the Records Managers. Division management will also update the
       Introduction to Records Management for the Information Resource Coordinators course,
       establish policies to ensure that Coordinators are trained, and expand their program of
       providing group training opportunities for business unit staff members who are involved
       in records management.

The Current Performance Measure Is Not Consistent With Records
Management Program Goals
The IRS Management Controls Accountability Program Handbook for Managers requires
managers to establish policies and procedures to ensure that reliable information is obtained and
used for decision making. Sound internal management controls and the Budget and Performance
Integration portion of the President’s Management Initiatives require that:
   •    Managers use performance information to make budget, regulatory, and management
        decisions.
   •    Agencies estimate the full and marginal cost of achieving performance goals.
   •    All programs include efficiency measures.
For Fiscal Year 2007, the IRS used the following two measures to assess the effectiveness of the
Records Management Program:
   •    Efficient Use of Federal Records Center Storage. This measures the quality of data sent
        to the National Archives and Records Administration supporting the retirement of IRS
        records and actions taken to correct problems in existing data.
   •    Timely Dissemination of Appropriate Information Regarding the Management of IRS
        Records. This measures the promotion, policy, and advice regarding records
        management conducted by the Records Managers.

                                                                                          Page 9
                             Controls and Performance Measures for the Records
                                Management Program Need to Be Improved



For Fiscal Year 2008, only one performance measure (ensuring that the data sent to the Federal
Records Centers are accurate) is being used to assess the Records Management Program. While
this is an important measure, it does not provide information on whether the Program is meeting
its major goals. The Internal Revenue Manual states:
           Major goals of the program are to furnish accurate and complete information when
           required to manage and operate the IRS and to provide information and records storage
           at the lowest possible cost. These goals are to be accomplished by:
           1. Creating only necessary records.
           2. Organizing and maintaining records efficiently.
           3. Ensuring the protection, preservation and efficient disposition of all records
              according to law.15
Consequently, the existing performance measure does not provide information on (1) the
accuracy and completeness of records storage and retrieval, (2) records storage costs, or
(3) whether the business units complied with Federal law or Department of the Treasury and IRS
regulations on records management. Without this information, management cannot obtain an
accurate assessment of the effectiveness and efficiency of the Program or determine if it is
making progress toward achieving its major goals.

Recommendation
Recommendation 4: The Director, Real Estate and Facilities Management Division, should
ensure that performance measures for the Records Management Program address both the
efficiency and effectiveness of the Program and are consistent with major Program goals.
           Management’s Response: IRS management agreed with this recommendation,
           stating that the Real Estate and Facilities Management Division has developed a
           Fiscal Year 2008 Work Plan with goals and objectives for the Records Management
           Program. Division management has been examining other performance measures and is
           working to address the efficiency and effectiveness of the Records Management Program
           measures as they relate to the Division’s strategic goals.




15
     Internal Revenue Manual Section 1.15.1.4 (dated 01-01-2003).
                                                                                               Page 10
                       Controls and Performance Measures for the Records
                          Management Program Need to Be Improved



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS Records Management
Program provides the oversight necessary to ensure that IRS records are legally and properly
handled throughout the records’ life cycle. To accomplish this objective, we:
I.     Determined whether the IRS had developed policies and guidelines to ensure compliance
       with Federal Government rules and regulations regarding records management.
       A. Contacted the National Archives and Records Administration and determined its
          expectations for records management within Federal Government agencies and
          bureaus.
       B. Determined the requirements of laws, policies, and guidelines that affect records
          management.
       C. Reviewed Internal Revenue Manual Section 1.15.1 to determine whether the IRS has
          developed policies and guidelines to ensure compliance with Federal Government
          rules and regulations and Department of the Treasury Directives regarding records
          management.
       D. Interviewed the IRS Records Officer, 10 of the 28 Area Records Managers, and 26 of
          the approximately 1,500 Information Resource Coordinators in the areas involved in
          records management to identify the processes and controls in place for records
          management. We selected judgmental samples due to time constraints, and because
          we did not intend to project our sample results to the overall populations.
       E. Queried the IRS official training database to determine the number of employees who
          have taken Course Number 9850s. We conducted limited tests of the reasonableness
          of the data by reviewing the data for duplicate records, incorrect dates, and
          inconsistent information. We determined the data to be sufficiently reliable for
          inclusion in this report.
       F. Reviewed prior Treasury Inspector General for Tax Administration and Government
          Accountability Office reports for any reported problems with records management.




                                                                                        Page 11
                      Controls and Performance Measures for the Records
                         Management Program Need to Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Diana M. Tengesdal, Acting Director
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
Kenneth E. Henderson, Senior Auditor
Angela Garner, Auditor
Stephen E. Holmes, Auditor




                                                                                    Page 12
                     Controls and Performance Measures for the Records
                        Management Program Need to Be Improved



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A:F




                                                                         Page 13
       Controls and Performance Measures for the Records
          Management Program Need to Be Improved



                                                 Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
Controls and Performance Measures for the Records
   Management Program Need to Be Improved




                                                    Page 15
Controls and Performance Measures for the Records
   Management Program Need to Be Improved




                                                    Page 16
